CERTIFICATE OF WORD COUNT
NO. 21-156
American Contractors Supply, LLC,
Petitioners,
v.
HD Supply Construction Supply, Ltd.,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the HD SUPPLY
CONSTRUCTION SUPPLY, LTD. BRIEF IN OPPOSITION contains 3007 words, including the parts of the
brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
September 1, 2021

SCP Tracking: Wofford, Jr.-2870 Peachtree Rd, Suite 193-Cover Orange

